No. 21-5095

In the Supreme Court of the United States
MELISSA ELIZABETH LUCIO,
Petitioner,
v.
BOBBY LUMPKIN, Director, Texas
Department of Criminal Justice,
Correctional Institutions Division,
Respondent.
On Petition for Writ of Certiorari
To the United States Court of Appeals for the Fifth Circuit
CERTIFICATE OF SERVICE
I, A. Richard Ellis, counsel of record for Petitioner, Melissa Elizabeth Lucio,
hereby certify that on September 28, 2021, I have served the Reply to Brief in
Opposition to Petition for Writ of Certiorari on counsel of record for Respondent,
Mr. Judd E. Stone II,
Attorney General’s Office for the State of Texas,
Solicitor General Division,
209 W. 14th Street, Austin, TX 78711
(judd.stone@oag.texas.gov)
All parties required to be served have been served. I am a member of the Bar
of this Court.
/s/ A. Richard Ellis
A. RICHARD ELLIS
75 Magee Drive
Mill Valley, CA94941
(415) 389-6771
Counsel for Petitioner Melissa Elizabeth Lucio

